HHS/OIG-Audit--"Audit of Special Early Retirement Program Pension Costs Claimed by Blue Cross and Blue Shield of Michigan, Inc., (A-07-92-00525)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Special Early Retirement Program Pension Costs Claimed by Blue
Cross and Blue Shield of Michigan, Inc.," (A-07-92-00525)
June 4, 1992
Complete
Text of Report is available in PDF format (740 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Blue Cross and Blue Shield of Michigan,
Inc. received $2,135,884 in unallowable Medicare reimbursement for pension expenses
claimed in 1988. The amount received was not computed or funded in accordance with
Federal Acquisition Regulations or Cost Accounting Standards. We recommended procedural
improvements and a financial adjustment for $2,135,884. Both Health Care Financing
Administration and Blue Cross and Blue Shield of Michigan, Inc. officials concurred
with our recommendations.